<html>
<title> - AI, UAVs, HYPERSONICS, AND AUTONOMOUS SYSTEMS: EMERGING TECHNOLOGIES AND EURO-ATLANTIC SECURITY</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                 AI, UAVs, HYPERSONICS, AND AUTONOMOUS

                   SYSTEMS: EMERGING TECHNOLOGIES AND

                         EURO-ATLANTIC SECURITY

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 22, 2020

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-2-1]
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


                       Available via www.csce.gov
                       
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-690 PDF              WASHINGTON : 2021                        
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

               HOUSE

                                                   SENATE

ALCEE L. HASTINGS, Florida             ROGER F. WICKER, Mississippi, 
Chairman                               Co-Chairman
JOE WILSON, North Carolina             BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri           CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania        JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina         THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin                  TOM UDALL, New Mexico
MARC VEASEY, Texas                     SHELDON WHITEHOUSE, Rhode Island

    
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed

                                  [ii]
                                  
                                  
                 AI, UAVs, HYPERSONICS, AND AUTONOMOUS
                   SYSTEMS: EMERGING TECHNOLOGIES AND
                         EURO-ATLANTIC SECURITY

                              ----------                              

                            January 22, 2020
                              COMMISSIONER

                                                                   Page
Hon. Marc Veasey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

                          MEMBERS OF CONGRESS

Hon. Colin Allred, Representative from the 32d District of Texas.     3

Hon. Ron Wright, Representative from the 6th District of Texas...     4

                               WITNESSES

Kelley M. Sayler, Analyst in Advanced Technology and 
  Global Security, U.S. Congressional Research Service...........     6

Dr. William Inboden, Executive Director at the Clements Center 
  for National Security and Associate Professor at the LBJ 
  School, University of Texas-Austin.............................     8

Chris Jenks, Director of the Criminal Clinic and Associate 
  Professor of Law, Southern Methodist University................    11

                                APPENDIX

Prepared statement of Hon. Marc Veasey...........................    26

Prepared statement of Kelley M. Sayler...........................    29

Prepared statement of Dr. William Inboden........................    42

Prepared statement of Chris Jenks................................    49


                 AI, UAVs, HYPERSONICS, AND AUTONOMOUS

                   SYSTEMS: EMERGING TECHNOLOGIES AND

                         EURO-ATLANTIC SECURITY

                              ----------                              


                            January 22, 2020

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The field hearing was held at 9:15 a.m. in Nedderman Hall, 
University of Texas at Arlington, Arlington, Texas, Hon. Marc 
Veasey, Commissioner, Commission on Security and Cooperation in 
Europe, presiding.

    Commissioner present: Hon. Marc Veasey, Commissioner, 
Commission on Security and Cooperation in Europe.

    Members of Congress present: Hon. Colin Allred, 
Representative from the 32nd District of Texas; and Hon. Ron 
Wright, Representative from the 6th District of Texas.

    Witnesses present:  Kelley M. Sayler, Analyst in Advanced 
Technology and Global Security, U.S. Congressional Research 
Service; Dr. William Inboden, Executive Director at the 
Clements Center for National Security and Associate Professor 
at the LBJ School, University of Texas-Austin; and Chris Jenks, 
Director of the Criminal Clinic and Associate Professor of Law, 
Southern Methodist University.

  HON. MARC VEASEY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Veasey. Good morning. It's my distinct pleasure to 
welcome everyone to this field hearing on the Commission on 
Security and Cooperation in Europe, which is informally 
referred to as the U.S. Helsinki Commission. I have the honor 
of serving as a commissioner. And the chairman of the committee 
is Alcee Hastings of Florida. And I want to thank Congressman 
Hastings for asking me to convene this hearing today at UTA. 
Some of you may be less familiar with the Helsinki Commission 
than our usual audience in Washington, DC, and I'd like to 
start off by telling you a little bit about the commission.
    Forty-four years ago President Gerald Ford joined 35 other 
heads of state--including long-standing American adversaries--
to sign one of the most significant international agreements of 
the 20th century, the final act of the Conference on Security 
and Cooperation in Europe, better known as the Helsinki 
Accords. The accords committed the United States, Europe, and 
the Soviet Union to respect human rights, to manage the spread 
of dangerous weapons, to foster economic opportunity, and to 
ending the territorial disputes in Europe that had already 
twice plunged the world into war.
    Our commission was created to uphold exactly these 
commitments, and since its inception it has provided a crucial 
voice for defending freedom, opportunity, and human rights 
throughout the United States and the Organization for Security 
and Cooperation in Europe, also known as the OSCE, where these 
commitments are negotiated to this day. Composed of Members of 
Congress from both parties and chosen from the House and 
Senate, the Helsinki Commission represents our democracy's 
commitment to preserving and advancing the peace, freedom, and 
prosperity across the world that previous generations of 
Americans sacrificed so much to be able to achieve. That is why 
I'm honored to have been appointed to serve on the Helsinki 
Commission, because the world has changed dramatically since it 
was established, but the need to defend the principles of peace 
and security and freedom and opportunity and human rights is 
greater than ever.
    Ladies and gentlemen, let me now offer a few thoughts on 
the purpose of the event and why we're actually having the 
event here in Texas. The subject matter for today's hearing 
relates to the impact of emerging technologies on Euro-Atlantic 
security. And I'm looking forward to learning a great deal from 
our witnesses today on this subject. New threats that we are 
concerned with range from hypersonic weapons, to drones, to 
autonomous weapon platforms, artificial intelligence, directed 
energy, and others. These technologies have the potential to 
unlock some very important capabilities to ensure the defense 
of our homeland and support our allies and friends abroad. 
However, these same technologies are under development by some 
of our strategic competitors--Russia chief among them--and so 
I'll look forward to hearing from our experts and their views 
on how potential adversaries are looking to use some of these 
same technologies to threaten us and our allies around the 
world.
    Finally, I will also look forward to our witnesses' views 
on how we should approach our international engagement on these 
technologies, including through diplomatic efforts and 
understanding what national and legal regimes apply or are 
under consideration. In particular, today's discussion should 
help us better consider whether the OSCE and its affiliated 
security institutions can offer a space to establish norms for 
emerging technologies. So that's what we want to get out of 
today's hearing.
    But why are we having it here at UTA rather than D.C., 
where the Helsinki Commission and other committees normally 
meet? The answer to that question could not be more clear to 
those of us that are here in this room. But for the benefit of 
those who may be watching this on livestream or reading the 
transcript, I asked Chairman Hastings for the privilege of 
convening this hearing here precisely because of the unique 
confluence of technical know-how and academic expertise, and 
defense industrial presence we have right here in north Texas.
    The spirit of innovation and expertise alongside cutting-
edge industry and an innovative private sector is why the Army 
decided to establish the headquarters of its Futures Command in 
Austin in 2018. In fact, after this hearing we're going to be 
spending some time over in Fort Worth at Lockheed Martin 
Aeronautics to be briefed on the capabilities and technological 
advances provided by the F-35 Lightning II aircraft, and how 
well it provides increased opportunities for interservice and 
international cooperation. I'll also be visiting the production 
line where the F-35 is assembled and getting a firsthand look 
at our fifth gen fighters.
    And so we are here because of all the expertise available 
to us. But we're also here away from Washington because of how 
essential it is that Americans throughout our Nation have an 
opportunity to engage in policy discussions paramount to our 
shared values in the transatlantic space. This hearing offers a 
connection outside the Beltway to America's international 
commitments as a participating State of the OSCE. We should all 
have a stake in meeting commitments to our local and 
international communities.
    And with that--with all of that being said, I now want to 
turn to my fellow Texans. To my right here we have Colin 
Allred, who represents the 32d Congressional District in Dallas 
County. And to my left we have Congressman Ron Wright of the 
6th Congressional District. We're actually in his district, so 
thank you for hosting us. And he represents the 6th 
Congressional District, that represents Ellis counties and 
Tarrant counties. And I now want to yield to them so they can 
make some opening remarks.
    Colin.

  HON. COLIN ALLRED, REPRESENTATIVE FROM THE 32d DISTRICT OF 
                             TEXAS

    Mr. Allred. Well, thank you, Mark and Ron, for being here. 
And to our panel, thank you for taking your time out. I'd like 
to also thank the Helsinki Commission for holding this hearing 
here in north Texas.
    The emerging technologies discussed in this forum can both 
enhance our security and further endanger our future. Although 
there are positive aspects to some of these technologies that 
could reduce the number of lives lost in armed conflict, there 
are, of course, ethical and legal dilemmas that they also 
present. And as we look to develop these technologies, I think 
the United States must balance both security readiness and 
maintaining our values as a Nation. That's why I'm looking 
forward to hearing from our witnesses today on these important 
topics.
    I'm a member of the Foreign Affairs Committee and can say 
that obviously we are in a moment in which there is conflict 
popping up around the world, and in which we have a complicated 
threat stream that we're trying to look to. But as we turn to 
the great power competition that we've seen emerging now as the 
focus of our own foreign policy and of our strategic opponents, 
I think it's important that we look at these emerging 
technologies and how this is going to impact it.
    I think as was said in some of the testimony that I read 
and that may be presented today, you know, advancing technology 
is as old as humankind, especially in warfare. This is 
something that we have done from the very beginning, finding 
better and more efficient ways to conduct warfare. And it has 
always presented ethical dilemmas. Maybe never so much so as 
now, though. And I think that's something that we should 
consider, and that this is an area where the United States has 
to lead in. We're the only country that can lead in this 
regard. And we are, of course, I think, going to have to take 
the dual approach of pursuing our own technology advances while 
also pursuing international agreements to find a way forward.
    So thank you all for being here. Appreciate you. And I look 
forward to getting into the testimony and having a lively 
discussion.
    Mr. Veasey. Thank you. Thank you very much, Representative 
Allred.
    And now I'm going to pass the mic to Representative Wright.

 HON. RON WRIGHT, REPRESENTATIVE FROM THE 6th DISTRICT OF TEXAS

    Mr. Wright. Thank you. And I want to thank Congressman 
Veasey for having this hearing here and inviting me. I want to 
thank the panel for coming today.
    One of the things that Congressman Veasey did not tell you 
is another reason to have it here is this is the land of the 
lucid, because it's not in Washington. And anytime you can have 
a hearing outside of Washington, it's a good thing.
    Many years ago--by the way, I'm old enough that I actually 
remember the Helsinki Accords, probably one of the few people 
in the room that do--but many years ago, it was in the 1970s, 
and I'll never forget this. I was with my grandfather, and we 
were watching TV at his house. And there was this news report 
about--and it was an environmental report. It was mainly about 
smog and how bad automobiles had become in terms of their 
contribution to smog in concentrated areas. That was before we 
really started cleaning up, you know, how--catalytic converters 
and all those things that we added to cars to clean them up.
    And he looked at me and he said: You know, we didn't have 
that problem with horses. And although he was joking, his point 
was well-taken. And that is that technology is always a double-
edged sword. And if you have a cellphone, that cellphone is a 
double-edged sword. Nothing has interrupted my life like a 
cellphone has. And technology's a wonderful thing, but there's 
always that downside to it. And what we're looking at here 
today is--you know, we have just a plethora of emerging 
technologies, all of which could be used to benefit mankind 
tremendously.
    I think--you know, I would like to think that within my 
lifetime biotechnology will solve the problem of famine. That's 
just one--medical science--I mean, I could--there's a long list 
of technologies that are emerging that are going to make a 
tremendous difference to the quality of life of everybody on 
this planet. But there's also that downside. And that is that 
bad characters can use that same technology and weaponize it in 
ways that would really hurt and possibly even destroy humanity. 
This is a very important hearing. Congressman Veasey, thank you 
for holding it.
    Mr. Veasey. Absolutely. Congressman Wright, thank you very 
much.
    And before I finish with my remarks, I just want to share a 
personal story that you may find humorous. So Friday night Ron 
and I, Congressman Wright and I, were both here at UTA for the 
MLK banquet that they had on Friday night. And as Members of 
Congress, particularly when we're back in our district, we're 
very busy. We're always at, like, different events.
    And were it not for the wonderful staff and all of our 
staffs represented here today that help us, from everything 
including keeping our schedules, we really wouldn't know how to 
get from one place to the other. I usually literally look at my 
schedule the night before to know what I'm doing that next day 
to try to keep up with everything. And so it's not unusual that 
you forget or don't recall that you've agreed to go to a 
certain event.
    And so if you could have saw Congressman Wright's face on 
Friday night at the banquet when I told him: Ron, thank you for 
agreeing to come to Helsinki. And he looked at me like, When 
did I agree to go to Finland with you? [Laughter.] And if you 
could have just saw his face. It was--it was----
    Mr. Wright. My heart stopped.
    Mr. Veasey. Yes. It was--it was classic. But again, I want 
to thank both of these gentlemen for taking time out of their 
busy schedule to be a part of this.
    Now let me express my gratitude to the experts who have 
taken time out of their busy schedules to also be with us today 
to provide their testimony for the record. I'd like to very 
briefly introduce them. And I think that you'll see that they 
represent a clear demonstration of the incredibly high caliber 
of locally sourced national security expertise we have right 
here in Texas.
    First, we're going to hear from Kelley Sayler, who is an 
analyst in advanced technology and global security at the U.S. 
Congressional Research Service. Kelley, thank you very much for 
being here. For those who may not know, the CRS is a great 
resource to all of us that are Members of Congress. We really 
depend on them to provide us expertise on almost any subject 
matter that comes before us as members. Ms. Sayler has an 
extensive experience working on these issues both in and out of 
the government, including service in the Office of Security and 
Defense. And I'll also note her strong Texas connections. She 
received her master's degree from Baylor University and also 
took some classes here at UTA. So, Ms. Sayler, thank you very 
much for being here.
    Our next speaker is going to be Dr. William Inboden, who 
serves as the executive director of the William Powers, Jr. 
chair at the William P. Clements, Jr. Center for National 
Security at the University of Texas at Austin. Among Dr. 
Inboden's many other roles, he serves as associate professor at 
the LBJ School of Public Affairs, distinguished scholar at the 
Robert S. Strauss Center for International Security and Law, 
and editor-in-chief of the Texas National Security Review. He 
has served as a senior director of strategic planning on the 
National Security Council at the White House and in the 
Department of State's policy planning staff, as well as serving 
as a staff member in both the U.S. Senate and the House of 
Representatives. Thank you very much for being here today, sir.
    Our third witness will be Professor Chris Jenks, who is the 
director of the Criminal Clinic and associate professor of law 
at the Dedman School of Law at SMU university in Dallas. And as 
you can see, Chris is even wearing his SMU colors. Thank you 
for representing your colors here today. As a noted expert on 
the Law of Armed Conflict and lethal autonomous weapons, 
Professor Jenks has served more than 20 years in the U.S. Army, 
first as an infantry officer in Germany, Kuwait, and as a NATO 
peacekeeper in Bosnia, and later as judge advocate. He also 
served details at the Department of State and at the Department 
of Justice and was recently called to serve as special 
assistant to the Department of Defense general counsel.
    And as a last note before I turn the floor over to the 
witnesses, I'd like to offer thanks to the University of Texas 
at Arlington. Thank you very much, Dean, for helping us 
coordinate this, and being a part of this day. We really, 
really do appreciate that. And just really Nedderman Hall, 
because this being the engineering department, and so much of 
the technology that happens here on a daily basis. I couldn't 
think of a more fitting place for us to have this program 
today.
    And let me inform witnesses that their full statements will 
be entered in the record. And I've asked them to summarize 
their testimony for the purpose of our discussion today. You 
now have the floor. And we'll start with Ms. Sayler.

  KELLEY M. SAYLER, ANALYST IN ADVANCED TECHNOLOGY AND GLOBAL 
         SECURITY, U.S. CONGRESSIONAL RESEARCH SERVICE

    Ms. Sayler. Thank you to Representative Veasey, 
Representative Allred, Representative Wright, and the Helsinki 
Commission for the opportunity to provide an overview of 
emerging military technologies and their potential implications 
for international security. I will focus my remarks today on 
three specific emerging military technologies: Artificial 
intelligence, lethal autonomous weapons, and hypersonic 
weapons.
    Although the U.S. Government has no official definition of 
artificial intelligence, AI generally refers to a computer 
system capable of human-level cognition. AI is currently being 
incorporated into a number of military applications by both the 
United States and U.S. competitors, including but not limited 
to intelligence, surveillance, and reconnaissance; logistics; 
cyber operations; command and control; and semi-autonomous and 
autonomous vehicles.
    These technologies are intended to either augment or 
replace human operators, freeing the operators for more complex 
and cognitively demanding work. In addition, AI-enabled systems 
could both react significantly faster than systems that rely 
upon operator input and cope with an exponential increase in 
the amount of data available for analysis. AI could also enable 
new concepts of operations, such as swarming, in which unmanned 
vehicles autonomously coordinate to achieve a task. Swarming 
could confer a warfighting advantage by overwhelming adversary 
defensive systems.
    The Department of Defense reportedly maintains over 600 
active AI projects and is particularly focused on developing AI 
applications for predictive maintenance, humanitarian aid and 
disaster relief, cyberspace, and robotic automation. China is 
the United States' most ambitious competitor in the 
international AI market. China has pursued language and facial 
recognition technologies and is developing various types of 
unmanned vehicles. It is also actively pursuing swarm 
technologies. In addition, reports indicate that the Chinese 
are developing a suite of AI tools for cyber operations.
    Russian AI development lags behind that of the United 
States and China. Nonetheless, the Russian military has been 
researching a number of AI applications, with a heavy emphasis 
on semiautonomous and autonomous military vehicles. Russia is 
also developing swarming capabilities and is exploring 
innovative uses of AI for remoting sensing and electronic 
warfare. In the event of a conflict, these capabilities could 
reduce our ability to effectively communicate and navigate on 
the battlefield.
    A related technology is lethal autonomous weapons, also 
known as LAWS. Although there is no internationally agreed upon 
definition of LAWS, the Defense Department has identified LAWS 
as a class of weapon systems that is capable of independently 
selecting and engaging targets without manual human control of 
the system. This capability would enable the system to operate 
in communications-degraded or -denied environments where 
traditional systems may not be able to operate.
    Some analysts have noted that LAWS could additionally allow 
weapons to strike military objectives more accurately and with 
less risk of collateral damage or civilian casualties. Others, 
including approximately 25 countries and 100 nongovernmental 
organizations, have called for a preemptive ban on LAWS due to 
ethical concerns such as a perceived lack of accountability for 
use and a perceived inability to comply with the 
proportionality and distinction requirements of the laws of 
war. The United States is not known to be currently developing 
LAWS, and neither China nor Russia has publicly stated that it 
is developing LAWS.
    Hypersonic weapons, which fly at speeds of at least Mach 
5--that's five times the speed of sound--and maneuver 
throughout their flight, are in development in a number of 
countries, including in the United States, Russia, and China. 
Currently no defense against hypersonic weapons exists, and 
experts disagree on the affordability, technological 
feasibility, and utility of hypersonic missile defense options. 
The Department of Defense currently has a number of hypersonic 
development programs; however, the United States is unlikely to 
field an operational hypersonic weapon before 2022.
    Russia is pursuing two nuclear-capable hypersonic weapons--
the Avangard and Zircon. Russia claims that Avangard became 
operational in December 2019 while the Zircon could become 
operational as early as 2023.
    China has tested the DF-ZF hypersonic weapon at least nine 
times since 2014. Although unconfirmed by U.S. intelligence 
agencies, some analysts believe the DF-ZF will be operational 
as early as this year. China also successfully tested Starry 
Sky-2, a hypersonic vehicle prototype, in August 2018. And some 
reports indicate that that system could be operational by 2025.
    The implications of these and other emerging technologies 
for international security are difficult if not impossible to 
predict. They will be a function of many factors, including the 
rate of technological advancement in both the United States and 
competitor nations, the manner in which emerging technologies 
are combined and integrated into existing military forces, the 
interactions between various emerging technologies, and the 
extent to which national policies and international law enable 
or inhibit their development, integration, and use.
    Nonetheless, many emerging technologies exhibit 
characteristics that could potentially impact the future 
character of war. For example, developments in technologies 
such as artificial intelligence, big data analytics, and lethal 
autonomous weapons could diminish or remove the need for a 
human operator. This could, in turn, increase combat efficiency 
and accelerate the pace of combat, potentially with 
destabilizing consequences. Emerging technologies could also 
potentially shift the offense-defense balance. For example, 
some analysts have suggested that swarms of coordinated, 
unmanned vehicles could overwhelm adversary defensive systems 
or U.S. defense systems, providing a greater advantage to the 
attacker, while directed-energy weapons that provide a low-cost 
means of neutralizing such attacks could favor the defender.
    Thank you, again, for inviting me here today. And I very 
much look forward to your questions.

DR. WILLIAM INBODEN, EXECUTIVE DIRECTOR AT THE CLEMENTS CENTER 
   FOR NATIONAL SECURITY AND ASSOCIATE PROFESSOR AT THE LBJ 
               SCHOOL, UNIVERSITY OF TEXAS-AUSTIN

    Dr. Inboden. Congressman Veasey, Congressman Allred, 
Congressman Wright, Helsinki Commission, and of course our UT 
Arlington leadership and student hosts, thank you also for 
including me in today's hearing. I want to say, as a 
parenthetical, it's especially encouraging to see bipartisan 
leadership here committed on these national security issues 
during our time of considerable division in our country across 
party lines. It's a great reminder of the bipartisan commitment 
that some wonderful leaders in Congress have to keeping our 
country strong and safe. So thank you. Your very presence here 
today shows that.
    On April 27th, 2007, Estonian citizens found their country 
under attack. External threats were all too familiar to this 
tiny Baltic State, which had been invaded and occupied for most 
of the 20th century by Nazi Germany and then by the Soviet 
Union. But this attack was different. It wasn't tanks and 
troops rolling across the border, or airplanes dropping bombs 
from the sky, but computer signals traveling at the speed of 
light through internet cables. In short order, the cyberattacks 
disrupted or shut down entirely Estonia's banking system, 
government, major media outlets, and political parties. These 
attacks continued in waves for 3 weeks. Though not a bomb was 
dropped, or shot was fired, nor did a single enemy soldier set 
foot in the country, the effects were crippling and brought the 
country to a standstill.
    For Estonia, the effect was almost the same of being 
invaded, occupied, and controlled by an outside power. That 
outside power was Russia. Though 13 years after the onslaught 
on Estonia many operational details are still unknown--which 
is, of course, itself a hallmark of cyber warfare--what is not 
disputed is that the Kremlin was the originating, authorizing, 
and orchestrating power behind the attacks. As the historian 
Robert Service writes, ``the Kremlin's purpose was not only to 
knock out the Estonian network of communications but also to 
show the world what it could do--as well as to allow its 
disruptive specialists to conduct a real-life test of what 
became known as hybrid warfare. Without setting foot outside 
the Russian capital they could do enormous harm abroad.''
    In that spirit, and for purposes of this hearing, from our 
vantage point 13 years later, I think we should look back on 
Russia's cyberattack on Estonia and see it for what it was: the 
first wave in what would become a cascade of Russian aggression 
and hybrid warfare that included weaponizing new technologies--
the very technologies we're looking at today. The Estonia 
attacks were followed by Russia's invasion of Georgia in 2008, 
by its seizure of Crimea and invasion of Ukraine in 2014, its 
military intervention in Syria in 2015, and even, I would 
argue, its assault on our democratic processes in the 2016 
election cycle--an assault which continues today.
    And I begin with these observations because, though Russia 
isn't mentioned by name in the title of today's hearing, Russia 
is the OSCE member State most implicated in the themes and 
questions we're addressing today and developing and 
implementing these new weapons systems.
    I should also mention, parenthetically, I'm glad that Ms. 
Sayler's testimony mentioned China. I was talking with 
Congressman Allred beforehand. We could do a whole `nother 
hearing on China. And I think China's advances in this area are 
even more significant. I was focusing on Russia because they 
are an OSCE member State, but also because, unlike China, 
Russia is actually employing these on the battlefield right 
now. China may have every intention of doing so, and we need to 
watch that space carefully. But Russia's actually 
operationalizing this.
    So anytime we make a strategic assessment of emerging 
technologies, I think we should ask ourselves what is new, and 
what is not? I want to mention three aspects of these new 
weapons technologies which are not new. The first is lethality. 
Yes, these can be lethal, but ever since nuclear weapons we've 
had, you know, the most totalizing form of lethality that the 
world has known--in addition to chemical and biological.
    The second which isn't new is range. These emerging 
technologies don't necessarily have unprecedented levels of 
range and reach. Existing weapons systems could already project 
force globally, and for over a half century we've had reach 
into outer space.
    The third which is not new is speed. Again, these emerging 
technologies have varying dimensions of speed, but they don't 
necessarily represent a qualitative leap in rapidity. Ballistic 
missiles already fly at several times the speed of sound, as 
hypersonics do. The internet already offered communications at 
the speed of light.
    So what is new? I think there's three aspects of these 
emerging technologies which are new, at least in a strategic 
sense. The first is deniability. Given various factors 
involving the distance of human operators, the operational 
complexity of cutouts and false surrogates, and the literal 
autonomy of some of these systems, oftentimes it's very easy to 
deny who actually was the main actor behind it. You know, to 
put it more colloquially, a lot of time they're not going to 
have a return address. And that makes deterrence and 
retaliation more difficult and can be strategically 
destabilizing.
    The second is controllability. This is the corollary of 
deniability. These new weapons systems can be controlled 
remotely with greater precision, from greater distance, with 
greater anonymity, and in greater safety for the operators than 
any previous weapons by an order of magnitude. It means that 
kinetic action could be taking place in an OSCE participant 
State, but controlled by various actors 10,000 miles away.
    And the third is inhumanity. And I don't mean this in the 
melodramatic sense, but the very literal sense of removing the 
human actor in ways we've never before seen before. The 
emerging domain of AI and autonomous weapons brings us a new 
paradigm that may completely remove the human actor and quite 
literally be inhumane. A great analyst on these is Paul Scharre 
of the Center for New American Security. I know Kelley's worked 
with him before. And he put it this way in his really excellent 
new book, ``An Army of None'': ``Do we control our creations or 
do they control us?''
    So how then, on the very specifics of our hearing today, 
should the OSCE think about these emerging technologies? Here's 
my main takeaway. If you remember nothing else from today, 
remember this next sentence: The importance of these emerging 
technologies cannot be evaluated aside from the nature of the 
states that use them. It's not the fact of the new technologies 
that matters most, but who will use them and for what purposes.
    To put it a little more provocatively, I doubt that many if 
any of us here worry too much about the United Kingdom and 
France possessing nuclear weapons, even though they both have 
for 77 years. Whereas many of us do continue to worry about 
Russia's nuclear arsenal. And there's a reason--there's a 
reason for that. And this is, I think, the core strategic 
insight of the original Helsinki process, the commission that 
brings us here today, because it connected respect for human 
rights and civil liberties with European and transatlantic 
security. And that continues to be the animating spirit of the 
OSCE.
    So bringing it back to Putin and Russia, his authoritarian 
rule squelches and silences any dissent, and empowers him to 
act with aggression based only on his whims or designs. Because 
he lacks popular legitimacy--and because he fears his own 
citizens--he resorts to a perverse and toxic combination of 
cultivating grievances, fueling paranoia, and projecting 
strength against adversaries, real or perceived. So such a 
ruler would naturally seek to acquire--and in his case to use--
the most advanced, sophisticated, and lethal weapons systems 
that he can.
    So what should be done? I think the best framework to 
address these emerging technologies lies in the commitments and 
values of the Helsinki Final Act. Again, the accords, the 
agreements that the CSCE continues to monitor and implement 
today. Open, free, and secure societies are best equipped to 
explore, debate, wrestle with and ultimately resolve these hard 
questions. In contrast, authoritarian states, by their nature, 
brook little dissent, encourage little transparency or debate, 
and concentrate power in the hands of dictators that generally 
make decisions on the employment of arms based on expediency 
and utility, rather than morality or conscience. So in 
practical terms, any strategy to address Russia's growing 
advantage in this weaponry needs to include pressing Russia to 
honor its OSCE commitments on human rights and freedoms.
    Finally, how might these technologies be managed and 
perhaps limited by international agreements? Well, I'm going to 
conclude with a hope, a caution, and a recommendation. The 
first is a hope. International agreements are possible. They 
have been forged at times in the past on controlling new 
weapons technologies, whether sawtooth bayonets, dum-dum 
bullets, chemical and biological weapons, blinding lasers, or 
even the entire class of nuclear weapons abolished by the 1987 
INF Treaty, competing states have been able to come together, 
forge agreements, and honor and fulfill them. So that's the 
hope.
    The caution: An arms control agreement is only as strong as 
its weakest signatory, and its verification regime. While 
Russia would need to be part of any effective arms control 
accords on emerging weapons technologies, Russia also 
historically has a bad habit of treaty violations. These 
include its violations in its previous incarnation as the 
Soviet Union or now as Russia of the ABM treaty, the Biological 
Weapons Convention, and the INF Treaty, not to mention its 
serial violations of its OSCE commitments. So we should temper 
our expectations or hopes of just how much can be accomplished 
with Russia in this realm in the near term.
    And finally, the recommendation. I do think the U.S. and 
our like-minded OSCE participant States should take a page from 
the cold war playbook and combine strength with diplomacy. 
Diplomatic success proceeds from military power and allied 
unity. To begin, the U.S. and other OSCE democracies should 
move forward in developing our own capabilities on emerging 
weapons technologies, specifically those featured today. 
Unilateral disarmament is not a luxury that we can indulge.
    But as with the NATO dual track decision of 1979 to respond 
to the Soviet deployment of intermediate-range nuclear missiles 
in Europe by, in turn, on the one hand, deploying American 
intermediate-range nuclear missiles, Pershing IIs and ground-
launched cruise missiles, and also pursuing diplomatic 
negotiations was a key decision NATO made and the Reagan 
Administration implemented thereafter of buildup, but also 
negotiate at the same time. We need to build up to negotiate. I 
think from a position of strength we can better encourage 
Russia and other potentially recalcitrant states, such as 
China, of the advantages of setting shared rules for the 
control, use, and limitation of these weapons.
    Thank you for your time and I look forward to our 
discussion.

  CHRIS JENKS, DIRECTOR OF THE CRIMINAL CLINIC AND ASSOCIATE 
        PROFESSOR OF LAW, SOUTHERN METHODIST UNIVERSITY

    Mr. Jenks. Congressman Veasey, Congressman Allred, 
Congressman Wright, I want to thank the Helsinki Commission and 
UTA for hosting this hearing and bringing attention to 
artificial intelligence, unmanned aerial vehicles, hypersonic, 
and autonomous systems. These topics are a problematic 
combination of critically important and commonly misunderstood. 
It is vital to transatlantic security that the United States 
and our allies reach consensus on how we think about these 
topics so we can identify where and how we wish to develop and 
operationalize emerging technologies, but also to identify 
norms and whether to limit the export of certain technologies 
to mitigate the risk of these capabilities ending up in the 
hands of bad actors.
    Some of today's topics are not being meaningfully discussed 
in multilateral fora. And the one topic which is the subject of 
such discussions, autonomous weapons, is frankly validating why 
entities like the OSCE may want to consider adding emerging 
technologies as a focus area. Autonomous weapons have been the 
subject of several years of discussions within the United 
Nations. The wonderfully named Convention on Certain 
Conventional Weapons, or CCW, has intermittently met in Geneva 
beginning in 2014. There are 125 states parties to the CCW, so 
roughly two-thirds of the countries in the world have signed 
on, including the U.S., Russia, China, and all of our European 
allies. The purpose of the CCW is to ban or restrict the use of 
specific types of weapons that are considered to cause 
unnecessary or unjustifiable suffering to combatants, or to 
affect civilians indiscriminately.
    But referring to autonomy and autonomous weapons is to 
refer to a technological descriptor, not a specific type of 
weapon. As a result, the international community has spent many 
confusing and frustrating hours in Geneva talking past each 
other because of the different understandings of autonomy. That 
is but one reason why the OSCE should consider also taking up 
this issue. Because we're talking about a technological 
descriptor, there are just as many, and frankly more, civilian 
applications which will leverage autonomy than there will be 
military. And these civilian applications will be increasingly 
important for economic growth and prosperity which, of course, 
also bears on security.
    Another reason why the OSCE should take up emerging 
technologies is to help inform the public. Within the CCW 
autonomous weapons discussions there is a small but exceedingly 
vocal coalition of nongovernmental organizations which seek to 
regulate or ban autonomous weapons. They have been effective at 
inciting what I call moral panic, employing evocative science-
fiction imagery of uncontrollable robotic weapons 
indiscriminately roaming the streets and shooting at everything 
from a toddler to a teddy bear. I don't want you to think that 
I'm being hyperbolic. They literally produced images of a 
robotics weapons system and a child carrying a teddy bear.
    While that sounds, and frankly is, absurd, one of the 
results of their efforts is that autonomy and artificial 
intelligence are now four-letter words. What do I mean? Well, 
some countries are avoiding acknowledging that they either 
already have fielded or are developing autonomous weapons 
systems--as if the word ``autonomy'' was now recognized as 
either politically incorrect or a profane word we were just 
made aware of. When I speak of autonomous weapons, similar to 
Ms. Sayler, I use the widely accepted definition of a system 
which is capable of selecting and engaging targets without 
human intervention. So we are talking about weapons systems 
which determine what to shoot at, and then shoot at that 
target.
    We should be clear that such systems are not far off in 
some vague technological timeline future. They are here, they 
have been here. The U.S. and many other countries, including 
our European allies, have fielded weapon systems with an 
autonomous mode. This goes back to the early 1980s. The systems 
are largely defensive, and anti-materiel. They shoot down 
incoming missiles, or planes, or boats which are attacking at 
close range. With technological advances comes the possibility 
of weapons systems able to perform new and different functions 
than in the past.
    I'm not saying this doesn't raise concerns. It does. But it 
also raises the prospects, as Congressman Allred alluded to, of 
limiting war's harmful effects, of using lethal force with 
greater discrimination, limiting civilian casualties but also 
better protecting our servicemembers. In my view, there can be 
no question that the U.S. and our European allies must continue 
to leverage emerging technology and weapons systems. We would 
be derelict in our duty if we didn't. But we need to halt the 
demonization of technology in the context of weapons.
    So I'll end by expressing my hope that you continue and 
expand these discussions both here in the U.S. and also in and 
with our European allies.
    Thank you for your time. I look forward to your questions.
    Mr. Veasey. Thank you very much. And I want to thank the 
panelists for those opening remarks. I'm going to open up with 
questions, and then I'm going to ask the members if they would 
like to ask the panelists questions as well. And if we have 
time, toward the end of the program we're going to open it up 
for questions from the audience. And so please be thinking 
about forming your own questions to ask these distinguished 
panelists.
    The first question that I have is on these new 
technologies. And I wanted to ask you particularly about how 
these emerging technologies have reinforced our ability to 
protect our own security and that of our allies and partners 
abroad. And I want to give you a specific example--addressing 
the A2/AD challenge by Russia and China.
    As you know, Russia--and it was talked about earlier in 
opening comments that you made--Russia actively threatens our 
NATO allies through its deployment of what are called anti-
access/area denial--A2/AD--capabilities in Kaliningrad and in 
Crimea, among other locations. These capabilities are designed 
to make it impossible for the U.S. to operate freely in the 
Baltic and Black Sea regions in the event of a conflict. China 
is similarly deploying capabilities designed to impact our 
ability to operate in the South China Sea.
    To what extent are these technologies we are discussing 
today relevant to addressing this particular challenge? And in 
particular, how could the United States' use hypersonic weapons 
and/or AI to defeat the capabilities of an adversary trying to 
deny us access to a certain geographic area? And we'll ask Ms. 
Sayler to open up with comments on that.
    Ms. Sayler. So I think the National Defense Strategy 
actually states very explicitly--there's a callout for emerging 
technologies, a recognition that these will, quote, ``ensure we 
will be able to fight and win the wars of the future.'' And so 
I think there was a recognition by the Pentagon that these 
would be critical in applications such as anti-access/area 
denial situations in Russia and China.
    When we're talking about emerging technologies, I think 
it's very important to keep in mind that the technologies are 
not ends in and of themselves. So they are tools in the hands 
of a commander. And what I mean by that is that it's not just 
that we get the right technologies, it's that we also ensure 
that they are integrated into our military forces, that our 
military forces are trained on how to use them, and that we 
have the appropriate concepts of operation to ensure that 
they're actually effective on the battlefield.
    And so hypersonic weapons, we don't have--publicly 
available anyway, operational concepts. It's difficult to 
evaluate how they might be used in the event of a conflict. But 
theoretically they offer maneuverability that you could 
potentially use if you have the appropriate sensor architecture 
to target road mobile missile launchers, that we know that both 
Russia and China, strategic competitors, are investing in, as 
well as other fleeting targets--for example, in a terrorist-
type situation. With artificial intelligence you're also 
increasing the speed with which you can execute decisionmaking. 
Again, that depends on how it's integrated into the system. But 
in theory that would enable you to be making decisions faster 
than your adversary. And that obviously gives you a distinct 
advantage.
    Mr. Veasey. Mr. Inboden, do you have any comments on that?
    Dr. Inboden. Just to add to that, at the strategic level a 
real concern I have is the growing cooperation between Russia 
and China in this realm. Whether it's technology sharing, joint 
military operations, or even shared strategic concepts on anti-
access/area denial. So China started pioneering this in the 
South China Sea. Russia saw that and sort of took a page out of 
Beijing's playbook in Kaliningrad.
    The other thing I'd say is this is not so much about the 
United States trying to poke our nose into other people's 
business where we don't have an interest. We have treaty allies 
who are very directly threatened and implicated by this. You 
know, Poland in the Baltics, you know, around Kaliningrad, of 
course, the Philippines in the South China Sea, and then our 
commitments--not formal treaty--but commitments to Taiwan and 
others. So our legally and morally bound allies want us there. 
And when adversaries are saying we can't be there because of 
these new technologies, that's a real problem.
    On the plus side, I hope that for regaining access 
sometimes it might be a matter of just disabling their command 
and control and communications without even having to fire a 
shot. So sometimes we can leap ahead of them if they've been 
able to try to deny access to an area. So I'm being a little 
more optimistic there, but it's not all a losing proposition.
    Mr. Veasey. I wanted to talk a little bit about the U.S., 
and are we falling behind in hypersonics. You know, Vladimir 
Putin claims that Russia is now the world's leader in 
developing and deploying operational hypersonics. Some analysts 
suggest that China is also potentially ahead of the United 
States in this domain. To what extent is this case? And what 
impact could it have on international security? And I think you 
have to keep in mind Putin--especially with him being a former 
KGB guy, he's always trying to spin things. He's always trying 
to see if he can win a propaganda war in saying things like 
that. But to what extent should we really be concerned about 
this?
    Ms. Sayler. So I think when we're evaluating whether or not 
the United States is falling behind in hypersonic weapons, it 
depends on the metric. So by a timeline, Russia has stated that 
it has already fielded a hypersonic weapon. China is likely to 
field on this year. The United States is not going to field one 
for probably two or three more years. But it's not an apples to 
apples comparison because we're developing different types of 
systems. And the systems that the United States is pursuing are 
actually more technologically sophisticated because, for 
example, we're not pursuing nuclear armed weapons. And so they 
need to be actually more precise than some of our strategic 
competitor systems.
    With that said, there is a broad range of opinion sort of 
on what the effect will be if these systems are deployed by 
U.S. competitors. So on one hand some analysts believe that 
these could be destabilizing because they're very unpredictable 
in how they operate, and you could have uncertainty with regard 
to the object that's being targeted, and that could in turn 
lead to unintended escalation of a conflict or other sort of 
destabilizing actions.
    On the other hand, there are analysts that believe that 
these technologies will be bound by the same principles of 
deterrence as our already existing missiles, and that therefore 
they are unlikely to have a profound consequence. And those 
analysts also point out that the United States missile defenses 
already are vulnerable in particular circumstances. For 
example, if an adversary were to deploy a missile salvo, and 
therefore their ability to launch a hypersonic weapon doesn't 
really change things particularly. So that's sort of the range 
of opinion on that issue.
    Mr. Veasey. My last question before I turn it over to 
colleagues, is the ethical, the human rights considerations. 
You know, some of the things under consideration--a lot of it 
is very sobering, especially when you start talking about 
lasers that blind people, as I think Dr. Inboden mentioned in 
his opening comments. You know, gene-editing babies, those are 
things that I think should concern all of us. What are the 
implications of emerging technologies for ethics and human 
rights? And are certain technologies more concerning than 
others to you? And what, if anything, governs our development 
of our own deployment of these technologies? And I'll open it 
up to anyone that's on the panel.
    Ms. Sayler. So I think with regard to ethics and human 
rights, again, it depends specifically on the country that's 
developing. What measures do they have in place? What does 
their weapons review process look like? When we talk about 
lethal autonomous weapons, again, full range of opinion. The 
U.S. Government has stated publicly that it believes that a ban 
on such systems would be preemptive and premature at this time, 
because potentially they could enable us to adhere even better 
to the law of armed conflict, that they would be more precise, 
that they would not have collateral damage or civilian 
casualties that other weapons systems might have. There's an 
alternative view that suggests that these weapons would be 
inherently indiscriminate. And so I think it depends on how 
countries are evaluating their systems, and essentially 
ensuring that they can perform as anticipated when they're 
deploying them. And that's a country-by-country sort of issue.
    Dr. Inboden. A couple thoughts to add to that. I'm in 
agreement with everything Ms. Sayler said. The first is 
essentially what she said, there are some upsides to these new 
technologies in the realm of ethics and morality. So for 
example, UAVs, you know it can be very controversial, drones, 
but in addition to the extra protection they provide for 
American forces their precision really helps fulfill two of the 
cardinal tenets of just war theory, law of armed conflict, of 
discrimination and proportionality. The first, discrimination, 
being you don't kill civilians, you just kill the bad guys, the 
enemy combatants. And with its precision targeting, you know, 
the bad guy can be right there, and a civilian right next to 
him or her, and we can just take him--take him out.
    The second, of course, is proportionality. Don't use any 
more force than you actually need. Don't use a 500-pound bomb 
if a bullet will do. And again, just putting a, you know, six-
or eight-pound warhead on a--on a missile from a UAV can 
sometimes kill just the right number of the bad people without 
excessive civilian casualties.
    So there are some positive sides of this. Another one, 
getting a little more into the realm of sci-fi, is that 
sometime it might even be--we might even have the capabilities 
to disable an enemy weapon system without having to kill any of 
them. But, you know, just make it stop in its proverbial tracks 
there.
    I come back to the principles of the Helsinki Accords, 
Helsinki's commitments to religious freedom, to allowing 
religious communities to bring voices of spirituality and 
conscience into these debates ensures that free societies, 
while doing whatever they need on the weaponry and materiel 
fronts, are also bringing in voices of conscience and morality 
to shape these debates. And that's my bigger worry with the 
Russias and Chinas of the world, is they're making these 
decisions based only on military strength and expediency, while 
they're squelching the different, you know, clergy and 
religious citizens who may be able to bring the voice of 
conscience in. So that's why I go back to that core Helsinki 
insight of all these things need to be considered together.
    Mr. Jenks. In terms of the implications, I think there's 
certainly at least the potential for some real positive, but 
also some negative, implications. When I think of the potential 
positive implications--I mean, it's certainly an ethical or a 
human rights win if we're limiting civilian casualties, 
limiting collateral damage. I think there is a risk with some 
of these emerging technologies that they might lower the 
threshold for using force, because you're now able to use force 
in a way where your servicemembers are not going to be at risk. 
And when you add into that, as Mr. Inboden talked about, 
deniability, I think that's a risk.
    One of the things I find interesting in the ethics 
discussion is increasingly people talking about human dignity 
and being killed by a machine. And I struggle to understand the 
difference in a human killing a human or a machine, frankly, 
killing a human. When I served in Iraq and we had a number of 
wounded U.S. servicemembers, I never encountered a wounded U.S. 
servicemember who felt better about having been shot by a 
person as opposed to an autonomous system. So I think we even 
have an ethical obligation to pursue some of these systems if 
we're able to use them more discriminately.
    In terms of potentially worrisome technologies, I think 
kind of below the radar a lot of the focus is on armed forces, 
but domestic security services. If you think about crowd 
control and privacy concerns--and if I now tell you that both 
on the air and on the ground there are robotic systems that are 
able to surveil or maybe even use--take riot kind of control 
measures, and to do so autonomously, you can see how in the 
hands of different country security services that don't have 
the constitutional obligations and responsibilities that we do, 
you could see that getting very problematic from a human rights 
or privacy perspective.
    Mr. Veasey. And I think also too one thing that has to be 
taken into consideration that I would ask the audience to think 
about also is that once you start limiting these things for 
military use, what sort of impact is that going to have on 
civilian applications, right? I mean, a lot of the things that 
we rely on for everyday use today--whether it's GPS, or whether 
it's, you know, drones--I know that cities now want to be able 
to use drones and what have you to be able to monitor things 
like traffic and high-speed pursuits, and what have you. So 
there are a lot of things that the military uses for defense 
purposes that we also want to be able to benefit from for 
everyday civilian use too. And you know, by denying some of 
these things what sort of impact will it--will it have on us 
being able to have these advances, particularly when other, you 
know, other countries are trying to develop them.
    So with that, I'm going to turn it over to Congressman 
Wright.
    Mr. Wright. Thank you very much. I think all of you know 
that Alfred Nobel invented dynamite. Now, this is the same 
Alfred Nobel for which the Nobel Prizes are named. And the 
story goes that when he developed dynamite he thought he had 
invented the end of war because it was such a horribly 
destructive device. And of course, we saw that that was wrong. 
And the experience of the 20th century at least was that if a 
technology could be developed then that technology would be 
weaponized. And if it could be weaponized, it would be used.
    Now for the last--since the 1980s, and the different arms 
accords and agreements that we've had, the use of nuclear 
weapons, at least by governments, has not been as great a 
factor as it was when I was growing up in the 1950s and 1960s. 
But that concern still--is still there, that if there is a 
technology that can be developed, it would likely, by bad 
actors, be weaponized and possibly used.
    And so you get into the ethical and moral questions y'all 
were just discussing. And I remember the neutron bomb, and the 
moral absurdity of having a bomb that would kill people but 
leave the buildings intact. That was a moral--and a worldwide 
outrage, because it was morally absurd. Why would it matter if 
the building survived, if all the people were dead?
    So you get into those kind of questions. My first question 
to you, though, is all these emerging technologies that can be 
weaponized, what frightens you the most? And I want all three 
of you to answer that.
    Mr. Jenks. I think I would just reiterate, for me--I mean, 
and different people have different fears or concerns. The idea 
of a kind of constant surveillance state that would be 
emboldened by autonomous--by autonomy, and the idea that there 
could be drones in the air. And you know what that drone does? 
It follows you everywhere. And if you turn this into 
microdrones and swarms of them, the idea that--I mean, I think 
a lot of people misunderstand that everywhere you are in 
Manhattan, you're on a camera. And everywhere you are in parts 
of London, you're under a camera. Now, just expand that level 
of surveillance, and I think the privacy--the privacy concerns. 
So that's--for me, that's the concern that comes to my mind.
    Mr. Wright. Makes your computer easier to use.
    Dr. Inboden. I would share all the concerns that Chris said 
there. I just spent a few weeks in China this summer and just, 
you know, the constant surveillance, the knowing that----
    Mr. Wright. The facial recognition.
    Dr. Inboden. Yes, the facial recognition, that kind of 
stuff. You know, under a Leninist police state. The other one 
that does scare me, though, is the possibility I alluded to 
earlier in the inhumanity part, is the potential development of 
a completely autonomous weapons system where human controls are 
totally out of the picture. I mean, the only time in history 
we've really seen something remotely close to this was the 
doomsday machine that the Soviet Union started building in the 
1980s. Their fear was that if the U.S. were to decapitate all 
the Soviet leadership in a preemptive nuclear strike, the 
machine would then take over and ensure that all the Soviet 
missiles were counter-launched, even though there's no one 
actually giving the order.
    And even the Soviets decided, wait, this is a bridge too 
far, because, you know, what if the machine goes haywire and 
we're actually here, but we can't--we can't turn it off and 
stop it? But that concept in the 21st century is truly 
horrifying. And that goes back to the question of, you know, do 
we control our creations, or do they control us?
    Ms. Sayler. I would hesitate to say that any specific 
technology is inherently bad. I think it really comes back to 
how it's being used and what regimes are in place to ensure 
that there is ethical use, that human rights considerations are 
taken into account. And that's really a question of policy. 
Many of these technologies do potentially pose operational risk 
or significant concerns for human rights and ethics. But I 
don't think that's an issue of something that's inherent in the 
technology.
    Mr. Wright. My next question has to do with how we engage, 
entice, and monitor nations that we think are bad actors and 
are engaged in the development of these technologies. We know 
that New START [Strategic Arms Reduction Treaty] is about to 
expire. I serve on Foreign Affairs with Colin. And we had a 
hearing not too long ago on that very issue, and the desire for 
the president to open that up to China.
    Well, China doesn't have a whole lot of interest in any 
kind of arms control. But that is a vehicle by which certain 
things could be added if we can do it without destroying the 
agreement itself. And that was the chief concern that came up 
in the hearing, is if we start adding things it would destroy 
the agreement itself and we would have no START.
    So my question is, how do we entice--because one of the 
reasons you even enter into an arms agreement is it gives you 
the ability--it gives us the ability--to see inside that 
country in ways we wouldn't be able to otherwise. So if it's 
not something like New START, how do we entice and get people, 
get nations like China and Russia--China especially. Russia is 
a menace, but China in the long term is a much greater threat--
how do we entice them to the table and get them to agree before 
all of this happens, before all of this gets to a mature state? 
Because it's much harder to do then.
    Dr. Inboden. Great question. I'm going to answer it by 
going back to one of your previous questions, looking at the 
nuclear era. And this is where we can take some encouragement 
from history. In the late 1960s there were only six nuclear 
powers in the world--the five U.N. permanent Security Council 
members and Israel. And they were--that is now undeclared. 
But--[inaudible]--Israel has nukes, okay? And in 1968 President 
Johnson, the namesake of the school that I teach at, led the 
way in drafting and ratifying the Nonproliferation Treaty. And 
at the time, the widespread fear was over the next 20 years the 
number of nuclear powers in the world would go from about 6 to 
about 36. Every expectation was there was going to be a cascade 
of proliferation over the next 20 years.
    And yet, here we are, over 50 years after the NPT, and 
there are only three more nuclear powers in the world since 
then--India, Pakistan, and North Korea. There's only nine now.
    Now, there's concern with those, especially with North 
Korea. But how and why did that work? And I think there's three 
reasons that maybe can be applied to the other--to control of 
the other technologies we're worried about today. The first is 
the treaty monitoring and dialog channels itself, right? I 
mean, even if--I was earlier skeptical of the Soviet Union/
Russia's record on this. They do break a lot of them. But 
having those monitoring channels, having those dialog ones, it 
at least limits the--and sometimes prevents the violations.
    The second, though, is something that's fallen into 
disrepute these days, and I wish we had more respect for, 
America's alliance structure. Why did Taiwan and South Korea 
and Japan give up their aspirations for nuclear weapons? 
Because they had the protection of the American nuclear 
umbrella, because they trusted our alliance commitments to 
them. And so I think the United States continuing to be 
committed to our allies is actually a strong 
counterproliferation measure which is often forgotten.
    The third goes back to my other point about strategic 
strength. Maintaining our defenses, maintaining a cutting-edge 
military ourselves strengthens our hand at the negotiating 
table. That needs to be compliant with the diplomacy, 
especially in these arms control agreements.
    Mr. Veasey. That's interesting, two of you mentioned about 
being under constant surveillance earlier, because just, you 
know, in our everyday lives, with the issue of data privacy--
something that that we deal with on the Energy and Commerce 
Committee--I feel like we're already kind of under constant 
surveillance anyway.
    In addition to Dean Crouch we've also now been joined by 
President Karbhari that's here. I want to recognize him. Thank 
you, sir. Thank you, President of UTA. We really appreciate you 
giving us this space--the generous use of the space. It's been 
a great presentation so far. So thank you very much. We 
appreciate it sir. Thank you.
    Now I'm going to turn it over to Congressman Allred.
    Mr. Allred. Thank you, Mr. Chairman, for the day. I want to 
thank my colleagues for their great questions. I think we've 
covered a lot of ground here.
    But, Dr. Inboden, I wanted to drill down on the inherent 
tension--and I agree with your point on this about pursuing a 
dual track approach. And I want to say I agree both because of 
the historic comparisons, and also because I think we can't 
unilaterally disarm, pursuing these technologies while also 
trying to use international agreements to place them in a----

    [AUDIO BREAK]

    Dr. Inboden. [In progress following audio break]--for 
example. Sometimes you just want to say, we're not going to--
we're not going to play in that realm. Similar to President 
Reagan's decisions to start reducing the nuclear arsenal as an 
example to the Soviets, would be another there.
    And on your larger point, the strategic question that, you 
know, leaders almost always face when you're looking at an 
adversary is: Are we in an escalation spiral or a deterrence 
cycle here? If it's an escalation spiral, where every step we 
take to get stronger they're going to take--you know, then it--
then it can get into an out-of-control arms race.
    So the key is how can we shift that to a deterrence cycle 
where us taking a step to get stronger persuades them we don't 
want to go into that realm? And the way to do that is, you 
know, partly by the building up, but also by diplomacy, by 
talking about the importance of human rights and civil 
liberties commitments, as these--as these mutual strengths. So 
it's never one clear, only go in this direction and not the 
other one as well. So they're hard questions and I appreciate 
you bringing it up.
    Mr. Allred. Well, I think it is going to be--the dynamic is 
going to be difficult because of that. But I don't think that 
means that we shouldn't pursue it. And I agree that we've been 
able to form some of these agreements at times with adversaries 
when--that were--in times that were more difficult than we have 
now in terms of our interactions with them. We're not in a cold 
war setting, but we were and we were able to sign these 
agreements. So I'm hopeful that we will continue to lead, and 
lead through our alliances, as you said. I think that this all 
has to be multilateral. None of this, in my opinion, should be 
bilateral. This is not just about the United States and Russia, 
the United States and China. This would be a worldwide issue.
    And to that point, Professor Jenks, I wanted to talk about 
lethal autonomous weapons systems and proliferation, because I 
share the idea that the existence of a weapon itself is not 
necessarily an evil, but that it does depend on who possesses 
it and how it's used. I might have a few more concerns than you 
do about the existence of entirely autonomous weapons systems, 
because I think that removing that human element does take out 
a discretion step that I think is dangerous in terms of 
escalation.
    But--and this is for you as well, Ms. Sayler--we've seen 
that Chinese weapons manufacturers such as Xi'an, I don't know 
if I'm pronouncing that correctly, have indicated that they 
might export these weapons systems to the UAE, Saudi Arabia, 
and Pakistan. I have in my mind, of course, concerns between 
Russia sharing this technology with Iran, China with North 
Korea. The proliferation of these systems, to me, has a real 
slippery slope here. And so as we look at policies such as 
considering a preemptive ban--which I recognize has 
limitations--what approach should we take, or do you think we 
can take, to try to prevent these weapon systems from getting 
out? Because the deterrence part of this is that we have equal 
skin in the game in terms of if you use it, we also have the 
ability to use it. That's not always the case with some of 
these rogue states, or even nonstate actors.
    Mr. Jenks. No, thank you, Congressman. That's an 
important--it's an important question. One of the unfortunate 
downsides of the circular discussions that have been ongoing in 
Geneva is it's taken up all the time and the space. And so 
we're not having other important conversations. Specifically as 
to your question on export controls, I would tell you there's 
an alarming lack of any meaningful discussion about what and 
how export controls would look like for things like artificial 
intelligence, autonomy, and cyber issues. Because we're talking 
now about lines of code, and how are we going to regulate and 
control that? And no doubt very challenging, but we're not even 
having those conversations.
    So I think we need to move past this what's autonomy, 
what's artificial intelligence. And that's why I wonder if 
discussions at a smaller level, maybe within the OSCE, than 
these broad forum discussions, like 125 countries that range 
the full spectrum including the Vatican and Costa Rica, which 
does not have an armed forces. So the discussions that that 
group is going to have are hard to kind of channel toward a 
productive outcome. But I think starting the discussion about 
export control regimes on artificial intelligence and autonomy 
is critically important. And it is not occurring at all.
    Ms. Sayler. I think one of the challenges with lethal 
autonomous weapons, when we think about traditional arms 
control regime we often say trust but verify. And as Mr. Jenks 
alluded to, this is a real challenge when it comes to a weapons 
system in which what is making it a lethal autonomous weapon is 
in the software.
    And so you could have the same system--the same hardware of 
the system, that could be--that could, for example, have a 
semi-autonomous mode, an autonomous mode, a fully autonomous 
lethal mode. And it's really a question of software. And so in 
order to verify that, you would have to have countries 
exchanging software code, which then gets into proprietary 
information, state secrets, classified information. So that's 
the challenge that you're facing. Not to say it's not feasible, 
but----
    Mr. Veasey. Now I want to open it up for questions from the 
audience. I want to let everyone know that we do have a hard 
stop at 10:30, so we won't be able to get that many questions 
in. I'll ask the panelists to try to keep their answers as 
brief as possible. But I did want everyone out there to have a 
chance to ask a question. Anyone in the audience have a 
question?
    Yes, sir.
    Questioner. Hello. I'm at UT Arlington political science 
and journalism major.
    I just recently got back from working at the Library of 
Congress Kluge Center, where we focused on a lot of different 
issues regarding China and export controls. So the U.S.-China 
Commission just recently published its 2019 report, alluding to 
the fact that several Chinese labs sponsored by the government 
might be sending students--posing as students to our graduate 
schools and our other schools, starting as, like, a history 
major, and then randomly switching to quantum computing.
    So, one, how do you foresee a future in which we defend the 
academic freedom of our students and the choice that they make 
when they come to study, but also our state secrets and our 
government-sponsored labs? I know there's a clearance process, 
of course, that goes into that, but how do we prevent those 
state secrets and lines of code from being whisked away to our 
strategic rivals?
    Mr. Veasey. You know, I'll give a couple of thoughts on 
that. The panelists or the other members may have some 
thoughts. The first one is that, you know, for our defense 
contractors that we have here in north Texas and across the 
country, you have to be a U.S. citizen to actually work at a 
defense contracting plant. You can't be--you can't be on a 
green card or H1-B. You have to be a U.S. citizen. The second 
thing is that everyone in the intelligence community is very 
well aware that the Chinese do send students over here to spy 
on us, and to get the expertise that they need in order to help 
advance the Chinese Government. To the extent that even a lot 
of our technology companies understand that. And when they're 
trying to get the H1-B visas, and what have you, for people to 
come and work at their different companies, that they put 
protections in place knowing that they were probably sent to a 
large tech firm, for instance, to be able to bring that 
technology back to China.
    Mr. Allred. I just wanted to very briefly weigh in and say 
I was actually having this conversation with some 
representatives from UTD yesterday. And Congressman Veasey's 
absolutely right. This is a very real thing. This is not 
something that's been made up. It's a threat to us. But at the 
same time, we have to balance that with the needs of our 
research institutions and understand what they are good at and 
what they are not good at. The research institutions themselves 
are not going to be good at performing the functions of the 
FBI, or the CIA, or trying to ferret out, you know, nefarious 
actors. That's not what their purpose is, and I think it also 
hurts the goal of their research, and also the goal of the 
scientific community--which is to gather information, have it 
peer reviewed, and have it available for discussion. But there 
are steps that we get to which the classification levels 
increase, in which the scrutiny has to increase. And that's 
where I think we can apply some of that.
    Dr. Inboden. If I could just add, in full agreement with 
Congressman Allred and Congressman Veasey, this is a very big 
issue we're dealing with at UT Austin as well. And it's a UT 
systemwide issue. And this is a very difficult balance because, 
on the one hand, one reason why the American higher education 
system is the envy of the world and draws so much international 
talent is because of its excellence, its quality, based on 
principles of transparency, and openness, and free inquiry, and 
academic freedom. However, unfortunately the Chinese Government 
has been exploiting that. And we've seen some, you know, 
significant cases of abuse and espionage. And there're more 
that hasn't been uncovered yet.
    So I think Congressman Allred's exactly right. We need 
better partnerships between FBI, CIA, counterintelligence, and 
our universities to at least be alert to these things. But we 
also need to remember, I can't stress this enough, that 
America's rivalry and competition right now is with the Chinese 
Government and the Chinese Communist Party, not the people of 
China. The people of China can be some of our best friends and 
allies in this. They--for the most part, they want more 
freedoms and better lives for themselves. They feel friendship 
toward America. They like our--they like our culture. They are 
not the enemy. But rather, they have a government with more 
nefarious designs. So keeping that distinction clear is really 
important.
    Questioner. Hi. I'm Victoria LaBarre. I go to UTA. I'm an 
electrical engineer and I focus in robotics. So the AI part was 
actually really interesting for me.
    Just because we're on ethical questions, with the part of 
the thing that's coming out with AI is, like, the more you make 
it autonomous when it goes wrong, like who do you blame? And 
just kind of the background with that is part of my research in 
machine learning is trying to make decisions when there is no 
base truth, because the problem with a system that you're going 
against one of the laws of robotics, where instead of, like, 
you can't injure a human, now we're telling you specifically 
please shoot one. The problem with this is, like, how does that 
autonomous system make that decision based off of no input at 
all? And does that lead into some biases?
    Ms. Sayler. The issue of accountability is hotly debated at 
the U.N. CCW, which is where the discussions of autonomous 
weapons take place. So the nongovernmental organization 
advocacy community essentially believes that there cannot be 
accountability. The U.S. Government and other delegations have 
essentially stated that the same accountability measures that 
apply to other weapons systems will apply to lethal autonomous 
weapons. So you have, you know, product liability, liability 
for defense contractors. It's incumbent on the commander who 
deploys the system to survey the operating environment and make 
sure that the weapon's use would comply with the Law of Armed 
Conflict.
    There are issues of bias and, you know, spoofing, and all 
kinds of concerns with regard to deploying these weapons. And 
so that's sort of getting back to the weapons review process. 
You would need to know that the weapon would perform as 
anticipated in a realistic operating environment. And that's 
something that's actually written into the U.S. policy on 
lethal autonomous weapons. But many countries--in fact, most 
countries--do not have policies for these systems. And so the 
concern would be that they might not be taking some of those 
factors that you raised into account.
    Mr. Jenks. And I think part of what you're likely to see is 
the development of autonomous systems in inverse relationship 
to the potential of if something goes awry that there will be 
civilian casualties. So that's why you're going to see the 
greatest development initially subsurface. If something goes 
wrong 200 meters below the surface of the water, that may go 
back for a whale, a friendly sub, a bad sub. High altitudes, 
I'd say middle of the ocean, and frankly the last domain where 
you're going to see autonomous weapons systems is going to be 
the really challenging ground, urban environment. And we may--
you know, we may never get there. But we will--frankly, are 
already working toward those other systems--again, subsurface, 
surface of the water, and high altitude.
    Mr. Veasey. Well, I know we have a couple more questions, 
and I want to apologize, because we do have to stop at 10:30. 
We promised we would let the panelists and the Members of 
Congress be able to leave at 10:30. But if you have a question 
and you want to ask some of the panelists on the way out, we 
think that they'd probably be happy to answer your questions. 
But I want to, again, thank Dr. Karbhari and the staff at UTA 
for allowing us to the space, and thank our distinguished 
panelists that were here. I thank my colleagues for taking time 
out of their schedule to come and be a part of this meeting of 
the U.S. Helsinki Commission on our cooperation that we have 
with our transatlantic partners. I think that these topics and 
many others that are discussed really, now probably more than 
ever, need to be something that the American public takes a 
closer look at.
    So thank you very much. [Applause.]
    [Whereupon, at 10:32 a.m., the field hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Hon. Marc Veasey

    Good morning to everybody. It is my distinct pleasure to 
welcome you all to this field hearing of the Commission on 
Security and Cooperation in Europe (CSCE), which is informally 
referred to as the U.S. Helsinki Commission.
    I have the honor of serving as a Commissioner, under the 
leadership of Congressman Alcee Hastings of Florida, and I 
would like to thank Chairman Hastings for asking me to convene 
this hearing today.
    Because some of you may be less familiar with the Helsinki 
Commission than our usual audience in Washington, DC, I'd like 
to start by telling you a bit about our Commission.
    Forty-four years ago, President Gerald Ford joined 35 other 
heads of state, including longstanding American adversaries, to 
sign one of the most significant international agreements of 
the 20th Century--the Final Act of the Conference on Security 
and Cooperation in Europe, better known as the Helsinki 
Accords.
    The accords committed the United States, Europe, and the 
Soviet Union to respect human rights, to manage the spread of 
dangerous weapons, to foster economic opportunity, and to 
ending the territorial disputes in Europe that had already 
twice plunged the world into war.
    Our Commission was created to uphold exactly these 
commitments, and since its inception, it has provided a crucial 
voice for defending freedom, opportunity, and human rights 
through the engagement of the United States in the Organization 
for Security and Cooperation in Europe--also known as the 
OSCE--where these commitments are negotiated to this day.
    Composed of Members of Congress from both parties and 
chosen from the House and Senate, the Helsinki Commission 
represents our democracy's commitment to preserving and 
advancing the peace, freedom, and prosperity across the world 
that previous generations of Americans sacrificed so much to 
achieve.
    That is why I am honored to have been appointed to serve on 
the Helsinki Commission. The world has changed dramatically 
since it was established, but the need to defend the principles 
of peace and security, freedom, opportunity and human rights is 
greater than ever.
    Ladies and gentlemen,
    Let me now offer a few thoughts on the purpose of this 
event, and why we are having it here in Texas.
    The subject matter for today's hearing relates to the 
impact of emerging technologies on Euro-Atlantic security, and 
I am looking forward to learning a great deal from our 
witnesses today on this subject.
    New threats that we are concerned with range from 
hypersonic weapons, to drones, autonomous weapon platforms, 
artificial intelligence, directed energy, and others. These 
technologies have the potential to unlock some important 
capabilities to ensure the defense of our homeland and support 
our Allies and friends abroad.
    However, these very same technologies are also under 
development by some of our strategic competitors--Russia chief 
among them--and so I also look forward to hearing our experts' 
views on how our potential adversaries are looking to use some 
of these same technologies to threaten us and our Allies.
    Finally, I will also look forward to our witnesses' views 
on how we should best approach our international engagement on 
these technologies, including through diplomatic efforts, and 
understanding what national and legal regimes apply or are 
under consideration. In particular, today's discussion should 
help us better consider whether the OSCE and its affiliated 
security institutions can offer a space to establish norms for 
emerging technologies.
    So that's what we want to get out of today's event.
    But why are we here, in Arlington, Texas, rather than in 
Washington D.C., where Congressional hearings typically take 
place?
    The answer to that question could not be more clear to 
those of us here in this room, but for the benefit of those who 
may be watching this on livestream or reading our transcript: I 
asked Chairman Hastings for the privilege of convening this 
hearing here precisely because of the unique confluence of 
technical know-how, academic expertise, and defense-industrial 
presence right here in Texas.
    This spirit of innovation and expertise, alongside cutting 
edge industry and an innovative private sector, is why the Army 
decided to establish the headquarters of its Futures Command in 
Austin, Texas, in 2018.
    In fact, after this hearing, I'll be spending some time 
this afternoon visiting Lockheed Martin Aeronautics, to be 
briefed on the increased capabilities and technological 
advances provided by the F-35 Lightning II aircraft, as well as 
how it provides increased opportunities for inter-service and 
international cooperation. I'll also be visiting the production 
line where the F-35 is assembled and getting a first-hand look 
at this 5th generation fighter jet.
    So we are here because of all the expertise available to 
us. But we are also here, away from Washington, because of how 
essential it is that Americans throughout our nation have an 
opportunity to engage in policy discussions paramount to our 
shared values in the transatlantic space. This hearing offers a 
connection outside of the Beltway to America's international 
commitments as a participating state of the OSCE. We all should 
have a stake in meeting commitments to our local and 
international communities.
    With all that being said, let me express my gratitude to 
the experts who have taken time out of their busy schedules to 
be with us today to provide their testimony for the record. I'd 
like to very briefly introduce them now, and I think you will 
quickly see that they represent a clear demonstration of the 
incredibly high caliber of locally-sourced national security 
expertise we have available to us here in Texas.
    <bullet> LWe will first hear from Kelley Sayler, who is an 
Analyst in Advanced Technology and Global Security at the U.S. 
Congressional Research Service. For those who may not know, the 
CRS is a tremendous resource to all of us in Congress who 
depend on their expertise on almost any issue that comes before 
us. Ms. Sayler has extensive experience working on these issues 
both in and out of government, including service in the Office 
of the Secretary of Defense. I also note her strong Texas 
connection: she received her Master's degree from Baylor 
University. Ms. Sayler, thank you for being here.
    <bullet> LOur next speaker will be Dr. William Inboden, who 
serves as the Executive Director and William Powers, Jr. Chair 
at the William P. Clements, Jr. Center for National Security at 
University of Texas-Austin. Among Dr. Inboden's many other 
roles, he also serves as Associate Professor at the LBJ School 
of Public Affairs, Distinguished Scholar at the Robert S. 
Strauss Center for International Security and Law, and Editor-
in-Chief of the Texas National Security Review. He has served 
as Senior Director for Strategic Planning on the National 
Security Council at the White House, and in the Department of 
State's Policy Planning Staff, as well as serving as a staff 
member in both the United States Senate and the House of 
Representatives.
    <bullet> LOur third witness today will be Professor Chris 
Jenks, Director of the Criminal Clinic and Associate Professor 
of Law at the Deadman School of Law at Southern Methodist 
University (SMU) in Dallas. A noted expert on the law of armed 
conflict and lethal autonomous weapons, Professor Jenks served 
more than 20 years in the US Army, first as an Infantry Officer 
in Germany, Kuwait and as a NATO peacekeeper in Bosnia and 
later as a Judge Advocate. He has also served details at the 
Department of State and at the Department of Justice, and was 
recently called to serve as Special Assistant to the Department 
of Defense General Counsel.
    As a last note before giving our witnesses the floor, I'd 
like to offer the Commission's thanks to the University of 
Texas, Arlington, for allowing us to use this great facility; 
what better place to talk about technology and its implications 
than right here in Nedderman Hall, home to the University's 
engineering departments?
    Let me inform the witnesses that their full statements will 
be entered into the record; I have asked them to summarize 
their testimony for the purposes of our discussion today.

                 Prepared Statement of Kelley M. Sayler
[GRAPHIC] [TIFF OMITTED] T9690.001

.eps[GRAPHIC] [TIFF OMITTED] T9690.002

.eps[GRAPHIC] [TIFF OMITTED] T9690.003

.eps[GRAPHIC] [TIFF OMITTED] T9690.004

.eps[GRAPHIC] [TIFF OMITTED] T9690.005

.eps[GRAPHIC] [TIFF OMITTED] T9690.006

.eps[GRAPHIC] [TIFF OMITTED] T9690.007

.eps[GRAPHIC] [TIFF OMITTED] T9690.008

.eps[GRAPHIC] [TIFF OMITTED] T9690.009

.eps[GRAPHIC] [TIFF OMITTED] T9690.010

.eps[GRAPHIC] [TIFF OMITTED] T9690.011

.eps[GRAPHIC] [TIFF OMITTED] T9690.012

.eps[GRAPHIC] [TIFF OMITTED] T9690.013

             .epsPrepared Statement of Dr. William Inboden
[GRAPHIC] [TIFF OMITTED] T9690.014

.eps[GRAPHIC] [TIFF OMITTED] T9690.015

.eps[GRAPHIC] [TIFF OMITTED] T9690.016

.eps[GRAPHIC] [TIFF OMITTED] T9690.017

.eps[GRAPHIC] [TIFF OMITTED] T9690.018

.eps[GRAPHIC] [TIFF OMITTED] T9690.019

.eps[GRAPHIC] [TIFF OMITTED] T9690.020

                 .epsPrepared Statement of Chris Jenks

    I want to thank the U.S. Commission on Security and 
Cooperation in Europe and in particular Congressman Veasey and 
his staff for the opportunity to discuss emerging technologies 
and euro-Atlantic security.
    My statement seeks to highlight the significance of 
artificial intelligence (AI) and autonomy to our national and 
collective trans-Atlantic security. I served in the U.S. 
military in Germany and Korea and on operational deployments to 
Bosnia, Kuwait, and Iraq and I've researched and written on 
emerging military technologies. I am familiar with the current 
security challenges facing the United States and our allies and 
I can unequivocally state that developing and operationalizing 
AI and autonomous systems is a legal and moral imperative. As I 
will later explain, more accurate wording would be to continue 
to develop and operationalize as depending on how one parses 
the definitions, we have fielded such systems for decades.
    I will briefly summarize the definitional and taxonomical 
challenges AI and autonomy pose before providing the Commission 
my assessment of how the U.S. is doing at present and then 
suggest where and how we need to change. To preview my bottom 
line, our current approach to AI and autonomy is appropriate 
but considerably more thinking on how the U.S. will conduct 
military operations in the future is needed. With that thinking 
will come changes, changes which may need to be Congressionally 
directed.
    In terms of how we think of AI and autonomy, there are 
widely varied approaches but no consensus on what either term 
means or even their relationship to the other. This in turn 
leads to two important points. The first is that many tech 
discussions are reduced to a veritable tower of Babel. The 
second is that under a number of definitions or understandings, 
the U.S. has fielded systems which use AI and/or perform 
functions autonomously for decades. In terms of AI, President 
Reagan's 1983 Strategic Defense Initiative incorporated aspects 
of what was then thought to be AI, notably expert systems AI 
which was developed in the 70s. The Defense Satellite 
Communication System and the Navy's submarine force, to name 
just two more contemporary programs, rely in part of AI as well 
as machine learning. In terms of autonomous systems, the Army's 
Patriot Missile and the Navy's Close in Weapons System or CIWS, 
incorporate autonomy into functions, including the selection 
and engagement of targets. And we fielded the Patriot starting 
in 1981 and the CIWS since 1980.
    Shifting to an assessment of how the United States is doing 
in terms of AI and autonomy strategy and development, the 
current U.S. approach is appropriate. Between the Defense 
Advanced Research Projects Agency, the relatively new Joint AI 
Center and each of the military services, research, testing and 
fielding of systems is ongoing. While enabling personnel to 
exercise appropriate levels of human judgment, these 
developments may improve the military's efficacy while 
strengthen the implementation of the law of armed conduct. This 
may include reducing the risk of civilian casualties and the 
armed forces, facilitating the investigation or reporting of 
incidents involving violations, enhancing the ability to 
implement corrective actions and automatically generating and 
disseminating information on unexploded ordnance.
    While the United States has a moral duty to continue to 
develop systems which limit the effects of armed conflict, 
there may well be a legal duty. Certainly for our European 
allies who are States Parties to Additional Protocol I of the 
1949 Geneva Conventions there is an obligation that ``in the 
conduct of military operations, constant care shall be taken to 
spare the civilian population, civilians and civilian 
objects.'' Thus if autonomous vehicles achieved a degree of 
sophistication and safety such that they were less likely to 
crash into civilians and civilian property than human operated 
vehicles, a country employing such vehicles might be required 
to use them during military operations as a result of the 
constant care obligation.
    At the same time the U.S. Department of Defense developed 
and released a policy on autonomy in weapons systems and the 
Defense Innovation Board and the recently established National 
Security Commission on Artificial Intelligence are working with 
both government and non-governmental organizations and industry 
to develop recommendations.
    Also appropriate is the United States participation in the 
ongoing United Nations meetings on autonomous weapons. The 
working papers and interventions from the U.S. delegation have 
significantly advanced those ongoing discussions. At the same 
time, it is also appropriate that the United States has 
resisted fear mongering NGO attempts at sweeping regulation or 
even a ban. At a minimum it is premature to consider sweeping 
regulation when there is nothing close to consensus on what is 
even meant by AI and autonomy. And as I previously mentioned, 
depending on how you define AI and autonomy, any number of 
systems fielded by the US and our allies for decades would be 
implicated.
    In terms of where and how we need to change, minimal if any 
attention has been paid to demarcating scientific and arms 
control mechanisms and much more thinking on how the U.S. will 
conduct military operations in the future is needed. This later 
point is not so much a tech problem as it is a process problem.
    The U.S. military is the personification of a hierarchical 
organization. Is such a structure capable of conducting the 
decentralized or distributed operations in general let alone in 
an environment in which communications are denied by the 
adversary? How will command and control, authorizations and 
delegations of authorization work? What about resolving dueling 
or competing authorities? While the Defense Department operates 
jointly, how effectively is DoD able to conduct joint military 
operations involving AI and autonomy without sharing a common 
backbone network?
    By way of example, consider the hierarchical way in which 
an air tasking order or ATO is developed in a military 
operation. An ATO is the sole method by which air strikes are 
planned, executed and assessed and involves multiple levels of 
command and staff and varying timelines and authorities. Now 
imagine a future environment in which no level of command is 
able to effectively communicate with the other, there are AI 
enabled systems able to perform a number of the ATO functions 
and ground forces require air support.
    Between military service cultures and organizational 
inertia, DoD is unlikely to make the significant changes 
required to effectively conduct the distributed, netcentric, 
military operations many experts believe will be required. The 
question then becomes what would force DoD to make those 
changes?
    Changes to how the U.S. military is structured and operates 
do not come quickly or easily. Ultimately, I submit that the 
U.S. Congress may need to direct that change.
    I suggest the Commission and the Congress consider the 
Goldwater-Nichols Act of 1986. The need for the Act arose 
during interservice rivalries in the Vietnam War, which later 
tragically manifested themselves in the 1980 failed attempt to 
rescue U.S. hostages in Iran and in the 1983 U.S. invasion of 
Grenada.
    I believe emerging technologies may require Goldwater-
Nichols 2.0, though preferably more quickly and without a 
precipitating armed conflict involving AI in which the U.S. 
fares less well than it could or should have.
    Thank you for your attention and I welcome your questions.

                                 <all>





 
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
